FILING AND MAILING CERTIFICATE
In compliance with Supreme Court Rule 29, I hereby certify that on
this 26th day of February 2021, I mailed to the Clerk of the Court for the
United States Supreme Court the required number of copies of this PETITION
for Writ of Certiorari with the Appendix and further certify that I mailed
three (3) copies to opposing counsel. All parties required to be served have
been served.
The necessary filing and mailing was performed in accordance with the
instructions given me by counsel in this case and are in compliance with 28
U.S.C. § 1746.

Fred Sowar
Appellate Advisors
1081 Locust Corner Rd.
Cincinnati, OH 45245
513-601-4844
Opposing Counsel Served:
Shannon J. Posner, Esquire
Law Offices of Shannon J. Posner, P.A.
Executive Plaza I — Suite 700
11350 McCormick Road
Hunt Valley, Maryland 21031
Telephone: (410) 472-4000
Facsimile: (410) 472-4400
Mobile: (410) 790-4624
Email: sjposner@posner-law.com

received

MAR 3 - 2021

